1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 20-5379

September Term, 2020
1:20-cv-03261-RDM
Filed On: January 1, 2021

Lisa Marie Montgomery
Appellee
v.
Jeffrey Rosen, Acting Attorney General of the United
States in his official capacity, et al.,
Appellants
BEFORE: Henderson, Katsas, and Walker, Circuit
Judges
ORDER
Upon consideration of the emergency motion to
stay or vacate, the opposition thereto, and the reply,
it is
ORDERED that the motion to vacate, which is
construed as a motion for summary reversal, be
granted. The merits of the parties’ positions are so
clear as to warrant summary action. See Taxpayers
Watchdog, Inc. v. Stanley, 819 F.2d 294, 297 (D.C.
Cir. 1987) (per curiam). On November 23, 2020, the
Director of the Federal Bureau of Prisons designated
January 12, 2021 as appellee’s new execution date.
The governing regulation, 28 C.F.R. § 26.3(a)(1), did

2a
not prohibit the Director from making that designation on November 23 because, at that time, the “date
designated for execution” had not yet “passe[d].” 28
C.F.R. § 26.3(a)(1). We therefore reverse and vacate
the district court’s order dated December 24, 2020 insofar as it granted summary judgment to appellee on
her claim that appellants violated 28 C.F.R. § 26.3(a)
and vacated the Director’s November 23, 2020 designation, and remand for further proceedings. It is
FURTHER ORDERED, on the court’s own motion, that any petition for rehearing or rehearing en
banc be filed no later than 5:00 p.m. on January 2,
2021.
Pursuant to D.C. Circuit Rule 36, this disposition
will not be published. The Clerk is directed to withhold issuance of the mandate until disposition of any
timely petition for rehearing or petition for rehearing
en banc. If no rehearing petition is filed by 5:00 p.m.
on January 2, 2021, the Clerk is directed to issue the
mandate forthwith. See Fed. R. App. P. 41(b); D.C.
Cir. Rule 41.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
By:

/s/
Amanda Himes
Deputy Clerk

3a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
LISA MARIE MONTGOMERY,
Plaintiff,
vs.

Civil Action No. 20-3261
(RDM)

JEFFREY A. ROSEN1
et al.,
Defendants.
On November 19, 2020, this Court issued a memorandum opinion and order “briefly staying” the execution of Plaintiff Lisa Montgomery. See generally
Montgomery v. Barr, No. 20-cv-3261, 2020 WL
6799140, at *11 (D.D.C. Nov. 19, 2020) (“Montgomery I”). As the Court explained in its memorandum
opinion, the postponement of Montgomery’s original
execution date—December 8, 2020—was intended
to allow her counsel, appointed pursuant to 18
U.S.C. § 3599, to recover from COVID-19 and to file
a clemency petition on Montgomery’s behalf. Montgomery I, 2020 WL 6799140, at *10. To provide
Plaintiff’s counsel with an opportunity to recover
and to file a clemency petition, the Court enjoined
Defendants “from executing Plaintiff Lisa Marie
Montgomery before December 31, 2020.” Dkt. 20.
Acting Attorney General Jeffery A. Rosen is substituted for former Attorney General William P. Barr, pursuant to Fed. R. Civ.
P. 25(d).

1

4a
“In light of the Court’s injunction and Montgomery’s
pending request for clemency, the Director of [the
Bureau of Prisons (“BOP”)] . . . announced” on November 23, 2020 “that Montgomery’s execution had
been rescheduled for January 12, 2021.” Dkt. 22-1
at 6; see also Dkt. 21.
Two motions are now before the Court. First,
Montgomery asks the Court to “clarify” or “modify”
its November 19, 2020 Memorandum Opinion and
Order to “establish . . . that th[e] Court’s stay suspended Defendants’ authority to designate a new
execution date during the pendency of the stay” and
“that nothing in the Court’s order relieved Defendants of their independent obligation under federal
law to wait until ‘the stay is lifted’ to designate a
‘new date’ of execution under 28 C.F.R. § 26.3.” Dkt.
28 at7. Second, she moves for partial summary judgment, Dkt. 35, on both counts of her supplemental
complaint, Dkt. 29-1, which challenges the lawfulness of the Director of BOP’s order setting the January 12, 2021 execution date on the grounds that
his action contravened both 28 C.F.R. § 26.3(a) and
the Federal Death Penalty Act (“FDPA”), 18 U.S.C.
§ 3591 et seq.
In these overlapping motions, Montgomery
raises several arguments. First, in her motion to
clarify, she contends that this Court’s order staying
her execution “‘temporarily suspend[ed]’” Defendants’ “‘authority to act’” with respect to her execution and thus deprived the Director of BOP (“Director”) of authority to set a new execution date until
after the stay expired. Dkt. 28 at 8 (quoting Nken v.
Holder, 556 U.S. 418, 428–29 (2009)). Second, in

5a
both her motion to clarify and in her motion for summary judgment, she argues that the regulations
governing the scheduling of federal executions—28
C.F.R. §§ 26.3, 26.4—barred the Director from setting a new execution date until after the stay was
lifted. Id. at 9–11; Dkt. 35 at 11–16. Third, in her
motion for summary judgment, she contends that
because the FDPA borrows “the law of the State in
which the sentence [was] imposed” for purposes of
supervising the “implementation of the sentence,”
18 U.S.C. § 3596(a), the setting of her execution date
must comply with a Missouri law that requires at
least 90 days’ notice before a scheduled execution
may occur and precludes “more than one warrant of
execution per month,” Mo. Sup. Ct. R. 30.30(f). Dkt.
35 at 16–18.
As explained below, the Court agrees with Montgomery that, when an execution is postponed in
light of a stay, the governing regulation, 28 C.F.R. §
26.3(a), prevents the Director from setting a new execution date until after the stay is lifted. Because
the Director set the new date here while the stay
remained in place, he failed to comply with the regulation and, accordingly, his order must be set aside
as “not in accordance with law,” 5 U.S.C. §
706(2)(A), and “without observance of procedure required by law,” id. § 706(2)(D). Having concluded
that the Director’s order must be set aside, moreover, the Court need not—and should not—reach
Montgomery’s remaining contentions. Because the
regulation bars the Director from setting a new execution date before the stay is lifted, the Court need

6a
not decide whether the Court’s stay might have independently deprived the Director of authority to
reschedule the execution. And it is premature for
the Court to decide whether the FDPA and Missouri
law require that the Director schedule a new execution date to occur at least 90 days after he acts. Until the Director sets a new date, this question is
purely hypothetical. The question, moreover, is not
an easy one, and would be better answered with
more time than allowed by the very expedited
schedule that the parties and the Court now face.
I. BACKGROUND
The Court has previously recounted much of the
relevant background, see Montgomery I, 2020 WL
6799140, and, accordingly, will only briefly summarize the facts here. In 2008, Montgomery was sentenced to death for kidnapping resulting in death in
violation of 18 U.S.C. § 1201(a). Id. at *1. On October 16, 2020, the Director set Montgomery’s execution date for December 8, 2020. Id. Under Pardon
Office regulations, Montgomery had “30 days after
[she] received notification from the Bureau of Prisons of the scheduled date of execution” to file a “petition for commutation of sentence,” although the
regulations permit a petitioner to supplement her
application “no later than 15 days after the filing of
the petition itself.” 28 C.F.R. § 1.10(b). This meant
Montgomery had to file her petition by November
15, 2020, although she could supplement that submission by November 30, 2020.

7a
In early November, the two lawyers with principal responsibility for preparing Montgomery’s clemency petition, Amy Harwell and Kelley Henry, fell
ill with COVID-19, severely limiting their ability to
work on Montgomery’s behalf. Montgomery I, 2020
WL 6799140, at *2. On November 12, 2020, Montgomery filed suit in this Court, Dkt. 1, and that
same day moved for a temporary restraining order
and preliminary injunction delaying her execution
date until she had a meaningful “opportunity to participate in a clemency process with the assistance of
counsel,” Dkt. 2 at 1.
The Court set an expedited schedule for briefing
and oral argument and issued a decision on November 19, 2020, granting Montgomery’s motion in part
and denying it in part. Montgomery I, 2020 WL
6799140 at * 1. The Court concluded that 18 U.S.C.
§ 3599 “creates an entitlement to the continuity of
representation by qualified counsel through postconviction review” including clemency proceedings,
id. at *7; that Harwell and Henry—who were both
quite sick—were “unable meaningfully to assist in
the preparation of Plaintiff’s clemency petition,” id.;
that Montgomery’s other counsel lacked the experience or knowledge of her case to “fill the shoes of
Harwell and Henry” in the few days remaining to
research and to prepare a petition, id. at *9; and
that, without a postponement of her execution date,
Montgomery would be denied access to the critical
“fail safe” in the criminal justice system of a meaningful opportunity to apply for clemency, id. at *7
(quoting Harbison v. Bell, 556 U.S. 180, 192 (2009)).

8a
With respect to the relief sought, Montgomery
asked that the Court enjoin Defendants—including
the Pardon Attorney—“from taking adverse action
relating to her request for reprieve until they provide a clemency process that comports with [due
process and] . . . 18 U.S.C. § 3599” and preclude Defendants “from carrying out her scheduled execution until she has had access to and an opportunity
to participate in a clemency process with the assistance of counsel that comports with fundamental
fairness.” Dkt. 2 at 1. The Court declined to issue an
order relating to the conduct of the reprieve and
pardon process “in light of the constitutional commitment of that authority to the President.” Montgomery I, 2020 WL 6799140 at *10. Instead, the
Court concluded that it was “sufficient . . . to stay
Plaintiff’s execution—briefly—to permit Harwell
and Henry to recover from their illness and to have
a short time to finish their work in supplementing
Plaintiff’s placeholder petition for a reprieve or commutation of sentence.” Id. The Court, accordingly,
“grant[ed] in part and . . . den[ied] in part Plaintiff’s
motion for a preliminary injunction and temporary
restraining order” and entered “an order briefly
staying Plaintiff’s execution date to permit Harwell
and Henry to finalize her clemency petition but [declined to] enjoin any government official, including
the President, from taking ‘adverse action on her request for reprieve and commutation.’” Id. at *11; see
also Dkt. 20 at 1. The Court further ordered Harwell
and Henry to finalize Montgomery’s “clemency petition as promptly as possible in light of their illness”

9a
and, if necessary, to enlist the assistance of other
counsel. Dkt. 20 at 1–2.
On November 23, the Director reset Montgomery’s execution for January 12, 2021. Dkt. 21. The
following day, Defendants moved to clarify that the
Court’s order had not relieved Montgomery’s remaining § 3599 counsel (Lisa Nouri) or the Office of
the Federal Public Defender for the Middle District
of Tennessee (Harwell and Henry’s office) of their
obligations to continue representing Montgomery in
her clemency proceedings. Dkt. 22 at 1. Defendants
further asked that the Court order that the Office of
the Federal Public Defender, a specific attorney in
that office (Henry Martin), and Nouri “begin work
on Montgomery’s clemency application immediately
. . . and make best efforts to file a completed application by December 24, 2020.” Id. The Court
granted that motion in part and denied it in part.
Minute Order, Nov. 25, 2020. Although the Court
declined to issue a mandatory injunction running
against individuals not before the Court, it did clarify “that nothing in [its] order of November 19, 2020,
Dkt. 20, relieved Lisa Nouri or the Office of the Federal Public Defender for the Middle District of Tennessee (FPD-MDT) of their obligations, pursuant to
18 U.S.C. § 3599, to represent Plaintiff in post-conviction and clemency proceedings” and that, “[i]n
staying Plaintiff’s execution date until December
31, 2020, the Court relied on the fact that Nouri and
the FPDMDT would remain obligated to continue
representing Plaintiff, along with Amy Harwell and
Kelley Henry as soon as they are medically able to
do so.” Id.

10a
On December 9, 2020, Montgomery filed her own
motion “to clarify and/or modify” the Court’s November 19, 2020 order. Dkt. 28. For two reasons, she
contends that the Court’s order had the effect of precluding the Director from setting a new execution
before the stay expires. First, Montgomery maintains that by staying her execution until December
31, 2020, the Court’s order “‘temporarily suspend[ed] the source of [the Director’s] authority to
act’” with respect to her execution, barring even preliminary steps such as setting an execution date. Id.
at 7 (quoting Nken, 556 U.S. at 428)). Second, she
asserts that, by setting a new execution date while
the stay was in effect, the Director violated 28
C.F.R. § 26.3(a)(1), which provides: “If the date designated for execution passes by reason of a stay of
execution, then a new date shall be designated
promptly by the Director of the Federal Bureau of
Prisons when the stay is lifted.” Id. (emphasis
added). Because Montgomery’s execution date
passed on December 8, 2020 as a result of this
Court’s stay, Montgomery contends that the Director acted prematurely in designating a new date before the stay expired. Id. at 10. When the Director
does set a new date, moreover, “[t]he Warden of the
designated institution [must] notify” Montgomery
“of the date designated for execution at least 20 days
in advance.” 28 C.F.R. § 26.4(a). In other words, in
Montgomery’s view, the Director may not set a new
execution date until the stay expires and, when he
does so, he must set the new date at least 20 days
from when the Director acts, so that the Warden can
provide the required notice.

11a
On the same day that Montgomery moved for
clarification and/or modification of the Court’s November 19, 2020 order, she also moved for leave to
file a supplemental complaint alleging that the Director violated 28 C.F.R. § 24.3(a)(1) when he set a
new execution date while the stay was in place2 and
that he violated the FDPA by (1) setting an execution date fewer than 90 days after the order designating the execution date, and (2) by scheduling
Montgomery’s execution for a month in which two
other federal executions are scheduled to take place.
Dkt. 29-1 (Supp. Compl.). Montgomery’s first claim
overlaps with her motion for clarification and/or
modification. Her second claim, however, was raised
only in her proposed, supplemental complaint. In
order to expedite proceedings, Defendants did not
oppose Montgomery’s motion for leave to file the
supplemental complaint, although they reserved
their right to argue that the supplemental complaint is “futile,” Dkt. 31, and the Court granted
Montgomery leave to file the supplemental complaint “without prejudice to Defendants’ right to
challenge the complaint on the merits,” Minute Order, Dec. 11, 2020. After Montgomery indicated that
she intended to move for summary judgment, the
Although parties agree that the Court’s stay was in place when
the Director rescheduled Montgomery’s execution, they quarrel
in the footnotes about whether the stay extends through December 31, 2020 or January 1, 2021. See, e.g., Dkt. 36 at 16 n.1; Dkt.
41 at 13 n.5. To be clear, the Court’s November 19, 2020 order
enjoined Defendants “from executing Plaintiff. . . before December 31, 2020,” Dkt. 20 at 1, and the Court has not subsequently
extended that time period.

2

12a
Court set an expedited schedule for briefing on that
motion and Montgomery’s pending motion to clarify
and/or modify the Court’s November 19, 2020 order.
Minute Order, Dec. 11, 2020. Defendants filed the
Administrative Record on December 13, 2020, Dkt.
33, and Montgomery filed her motion for partial
summary judgment two days later, Dkt. 35.
Montgomery’s motion for summary judgment
first contends that the Court should set aside the
Director’s order setting the January 12, 2020 execution date on the ground that it was issued in violation of 28 C.F.R. § 26.3(a) and thus constitutes
agency action “not in accordance with law,” 5 U.S.C.
§ 706(2)(A), and “without observance of procedure
required by law,” id. § 706(2)(D). Montgomery’s second argument turns on the meaning of 18 U.S.C. §
3596(a), which is the subject of a series of recent decisions from the D.C. Circuit. See In re Fed. Bureau
of Prisons’ Execution Protocol Cases, 955 F.3d 106
(D.C. Cir. 2020), cert. denied sub nom. Bourgeois v.
Barr, 141 S. Ct. 180 (2020) (“Execution Protocol
Cases I”); In re the Matter of Fed. Bureau of Prisons’
Execution Protocol Cases, No. 20-5361 (Dec. 10,
2020 D.C. Cir.) (en banc) (“Execution Protocol Cases
II”). That section provides that, “[w]hen [a federal
death] sentence is to be implemented, the Attorney
General shall release the person sentenced to death
to the custody of a United States marshal, who shall
supervise implementation of the sentence in the
manner prescribed by the law of the State in which
the sentence is imposed.” 18 U.S.C. § 3596(a). Here,
Montgomery was sentenced to death by a federal

13a
court sitting in Missouri, and she accordingly contends that Missouri law controls the “implementation” of her sentence. She further argues that the
Director’s order scheduling her execution for January 12, 2020 violates two provisions of Missouri law,
and thus violates the FDPA. Both of those provisions are found in Missouri Supreme Court Rule
30.30(f), which provides, in relevant part, (1) that
“[a]ny date of execution shall be at least 90 days but
not more than 120 days after the date the order setting the date is entered,” and (2) that “[t]he department of corrections shall not be required to execute
more than one warrant of execution per month.” Mo.
Sup. Ct. R. 30.30(f). Because the Director “provided
nowhere near the 90 days’ notice this rule requires,”
and because he has “scheduled two additional executions for January 2021,” Dkt. 35 at 17, Montgomery maintains that the rescheduled execution date
violates Rule 30.30(f), and thus that “a United
States marshal” has not supervised and cannot “supervise implementation of [her] sentence in the
manner prescribed by” Missouri law, 18 U.S.C. §
3596(a). In Montgomery’s view, these flaws mean
that the Director’s order is “not in accordance with
law,” 5 U.S.C. § 706(2)(A), “without observance of
procedure required by law,” id. § 706(2)(D), and “in
excess of statutory . . . authority,” id. § 706(2)(C).
Defendants oppose both the motion to clarify
and/or modify, Dkt. 36, and the motion for summary
judgment, Dkt. 37. The Court heard oral argument
on December 23, 2020, and, at the Court’s request,
the parties made supplemental filings late that
same night, Dkt. 44; Dkt. 45.

14a
II. LEGAL STANDARD
Before turning to the merits, the Court must resolve a threshold dispute: what legal standard governs? In Montgomery’s view, the usual summary
judgment and administrative law rules apply, and
she therefore bears the burden of showing that she
is entitled to prevail as a matter of law based on the
administrative record. Dkt. 42 at 25–29. In Defendants’ view, by contrast, Montgomery must satisfy
the heightened showing required for injunctive relief, and must therefore demonstrate, among other
things, that she will suffer an irreparable injury if
the Court does not act. Dkt. 37 at 33–36.
The Court is persuaded that the usual summary
judgment and administrative law rules govern.
Both of the claims that Montgomery presses arise
under the Administrative Procedure Act (“APA”), 5
U.S.C. § 706, Dkt. 29-1 at 6–8 (Supp. Compl. ¶¶ 20–
36), and where agency action violates the APA, “vacatur”—not an injunction—“is the normal remedy.”
Allina Health Servs. v. Sebelius, 746 F.3d 1102,
1110 (D.C. Cir. 2014). It may be, as Defendants explain, that vacating Montgomery’s execution date
“would have [the] compulsory effect” of “stop[ping]
Defendants from executing her absent compliance
with certain conditions.” Dkt. 37 at 34 (emphasis
added). But vacatur of agency action almost always
affects what the agency can—and cannot—do in the
future. In the rulemaking context, for example, vacatur prevents the agency from implementing the
rule and, at least as a practical matter, it prevents
the agency from repromulgating the same rule without curing the defect that led to vacatur—and then,

15a
still, the agency may not make the new rule effective for at least thirty days from its renewed publication, 5 U.S.C. § 553(d), or in some cases for at
least sixty days, id. § 801(a)(3)(A). In other words,
the consequence of almost every order of vacatur is
to place limits on future agency action.
Against this backdrop, “the Supreme Court has
cautioned that a district court vacating an agency
action under the APA should not issue an injunction
unless doing so would ‘have [a] meaningful practical
effect independent of [the policy’s] vacatur.’” L.M.M v. Cuccinelli, 442 F. Supp. 3d 1, 36 (D.D.C. 2020)
(quoting Monsanto Co. v. Geertson Seed Farms, 561
U.S. 139, 165 (2010)); see also OA v. Trump, 404 F.
Supp. 3d 109, 153–54 (D.D.C. 2019). The reason is
that “[a]n injunction is a drastic and extraordinary
remedy, which should not be granted as a matter of
course” or where “a less drastic remedy . . . [is] sufficient to redress” a plaintiff’s injury. Monsanto, 561
U.S. at 165–66. Defendants, thus, have the relevant
administrative law backwards. If an agency action
is contrary to law, the court “shall . . . set aside [the]
agency action,” 5 U.S.C. § 706 (emphasis added); see
also Matson Navigation Co., Inc. v. U.S. Dep’t of
Transp., 471 F. Supp. 3d 60, 63 (D.D.C. 2020)
(“[V]acatur is the normal remedy[.]” (quotation
marks omitted)), and courts should supplement that
remedy with an injunctive decree only in the rare
case when necessary.
The Court recognizes, as Defendants point out,
that were the Court to “impose[] an affirmative obligation of compliance” on Defendants such that

16a
they “would risk contempt” by rescheduling Montgomery’s execution, the injunctive relief factors
would apply. Dkt. 37 at 34. But that is not the relief
that Montgomery is now seeking. Compare Dkt. 353 at 1 (Plaintiff’s proposed order requesting Defendants be “barred from setting a new date for Plaintiff’s execution earlier than January 1, 2021”) with
Dkt. 42 at 29 (“Mrs. Montgomery seeks only vacatur
here; she merely requests that her January 12 execution date be set aside.” (emphasis added)). The
Court put this question squarely to Montgomery’s
counsel at oral argument, and counsel affirmed that
Montgomery is not asking that the Court do anything more than vacate the Director’s order setting
the execution date. The Court must, accordingly, assess Montgomery’s claims under the summary judgment standard.
That standard is well established: “In a case involving review of a final agency action under the
[APA] . . . summary judgment . . . serves as a ‘mechanism for deciding, as a matter of law, whether the
agency action is . . . consistent with the APA standard of review.’” Fisher v. Pension Benefit Guar.
Corp., 468 F. Supp. 3d 7, 18 (D.D.C. 2020) (quoting
Cayuga Nation v. Bernhardt, 374 F. Supp. 3d 1, 9
(D.D.C. 2019)). Here, that standard requires the
Court to determine whether the Director’s order
was “not in accordance with law,” 5 U.S.C. §
706(2)(A), “without observance of procedure required by law,” id. § 706(2)(D), or “in excess of statutory . . . authority,” id. § 706(2)(C).

17a
III. ANALYSIS
A. Motion to Clarify and/or Modify
The Court need not pause long over Montgomery’s motion to clarify and/or modify the Court’s November 19, 2020 order. Dkt. 28. To the extent Montgomery merely seeks to clarify what the Court intended in its earlier order, the Court has previously
informed the parties that the issues Montgomery
now raises were “not on [the Court’s] radar.” Dkt.
40 at 4. None of the parties raised any issue relating
to 28 C.F.R. § 26.3 or the effect that a stay might
have on the Director’s authority to set a new execution date, and the Court did not consider either issue of its own accord. Moreover, because the Director had yet to set a new date, the question whether
he had the authority to act before the Court’s stay
issued was not before the Court.
To the extent Montgomery seeks to modify the
Court’s November 19, 2020 order to void the Director’s subsequent order setting a new execution date
for January 12, 2021, the Court concludes that her
arguments are better raised in the context of her
motion for partial summary judgment. First, and
foremost, the relief that she seeks is premised on
events that occurred after the Court entered its
prior order. To be sure, one of her arguments turns
on the legal effect of the Court’s earlier order—
whether, even if the Court did not consider the issue, the Court’s order deprived the Director of authority to act as a matter of law. But the Court need
not reach that question if, as Montgomery contends,
28 C.F.R. § 26.3(a) has precisely that effect.

18a
The Court will, accordingly, consider Montgomery’s motion for partial summary judgment.
B. Motion for Partial Summary Judgment
Montgomery makes two principal arguments in
her motion for partial summary judgment. First,
she argues that the governing regulation, 28 C.F.R.
§ 26.3(a), provides that if an execution date passes
as a result of a stay of execution, the Director must
wait until the stay is lifted before setting a new
date. Because the Director set a new execution date
before the stay that the Court issued on November
19, 2020 expired, Montgomery contends that the Director’s order setting the new date was contrary to
law. Second, Montgomery argues that when Congress enacted the FDPA, it declined to adopt federal
procedures for implementing death sentences and,
instead, required the United States marshal to “supervise implementation of the sentence in the manner prescribed by the law of the State in which the
sentence [was] imposed.” 18 U.S.C. § 3596(a). According to Montgomery, this means that Missouri
law applies to the implementation of her death sentence, and under Missouri law, an execution date
must be set “at least 90 days . . . after the date the
order setting the date is entered,” and not “more
than one warrant of execution” may go forth per
month. Mo. Sup. Ct. R. 30.30(f). And, because the
date that the Director set failed to comply with either of these requirements, his order is, once again
in Montgomery’s view, unlawful and must be set
aside.

19a
Because the Court is persuaded by Montgomery’s first argument, it rests its decision on that
ground alone.
1. 28 C.F.R. § 26.3(a)
Even before Congress enacted the FDPA, the Attorney General promulgated rules to govern the
“Implementation of Death Sentences in Federal
Cases.” 57 Fed. Reg. 56,536 (Nov. 30, 1992). As the
Notice of Proposed Rulemaking (“NPRM”) explained, “[t]he United States Code . . . provide[d] for
the death penalty for a number of civilian offenses,”
but “[i]n 1984 Congress [had] repealed” the statute
that “provided that executions in Federal cases were
to be conducted in the manner prescribed in the
state in which the sentence was imposed.” Id. This
“left a need for procedures for obtaining and executing death orders,” which the Attorney General
sought to fill. Id.
Of particular relevance here, the new rules
charged the BOP Director with setting “[t]he date,
time and place of execution.” Id. As the NPRM explained, the Attorney General anticipated that
“[r]esting determination of the execution date with
the Director w[ould] obviate the practice, which is a
pointless source of delay in state cases, of seeking a
new execution date from the sentencing court each
time a higher court lifts a stay of execution that
caused an earlier execution date to pass.” Id. (emphasis added). Consistent with this understanding,
the final rule applicable here provides that “the attorney for the government shall . . . file with the
sentencing court a proposed Judgment and Order,”

20a
which must state, among other things, that “[t]he
sentence shall be executed on a date and at a place
designated by the Director of the Federal Bureau of
Prisons.”3 28 C.F.R. § 26.2(a)(3). The rule then provides as follows:
Except to the extent a court orders otherwise, a
sentence of death shall be executed:
(1) On a date and at a time designated by the
Director of the Federal Bureau of Prisons,
which date shall be no sooner than 60 days
from the entry of the judgment of death. If the
date designated for execution passes by reason
of a stay of execution, then a new date shall be
designated promptly by the Director of the

The judgment in this case authorized “the Attorney General” to
specify “[t]he time, place and manner of execution,” “provided
that the time shall not be sooner than 60 days nor later than 90
days after the date of this judgment.” Dkt. 32-1 at 2. The trial
court, however, “stayed” execution of its judgment “pending further order of th[e] Court upon receipt of the Mandate of the Court
of Appeal.” Id. Neither party has identified a “further order of
th[e] Court” lifting that stay, and neither party has addressed
the proviso limiting the Attorney General’s discretion to set an
execution date to the period between 60- and 90-days following
entry of judgment. Because Montgomery does not challenge the
Director’s order setting her execution date on this ground, and
because any such question is, in any event, better directed (if at
all) to the U.S. District Court for the Western District of Missouri, this Court expresses no view on the question. To the extent
the judgment authorizes the Attorney General, rather than the
BOP Director to set the execution date, it appears that the Attorney General was entitled to delegate the exercise of that authorization to the Director. See 28 U.S.C. § 510.

3

21a
Federal Bureau of Prisons when the stay is
lifted.
Id. § 26.3(a)(1) (emphases added). Finally, the regulations further require that “[t]he Warden of the
designated institution shall notify the prisoner . . .
of the date designated for execution at least 20 days
in advance, except when the date follows a postponement of fewer than 20 days of a previously
scheduled and noticed date of execution.” Id. §
26.4(a).
The parties disagree about the meaning of the
relevant provision of the regulations. In Montgomery’s view, the regulation provides that, if the Director needs to reschedule an execution because a stay
prevents the execution from going forward as originally scheduled, he may do so but only “when the
stay is lifted.” Id. § 26.3(a)(1). Defendants, in contrast, maintain that the relevant language does not
constrain the authority of the Director to set a new
date before the stay is lifted; it merely requires that
he “promptly” do so—if he has not already done so—
as soon as the stay is lifted. Id. And, if that argument fails, Defendants maintain that the regulation
does not preclude the Director from setting a new
date before the date that was originally set passes,
even if that date was nullified by a stay issued before the Director set the new date. For the reasons
explained below, the Court concludes that Montgomery has the better reading of the regulation and
that Defendants’ less convincing reading of the regulation is not saved by resort to Auer deference.

22a
Before turning to this textual dispute, the Court
must address Defendants’ suggestion that the rescheduling regulation does not apply because the
Court did not “stay” Montgomery’s execution but,
rather, “enjoined” Defendants from carrying out the
execution. To start, it is far from clear that Defendants even make this argument. To be sure, they do
argue that the Court’s November 19, 2020 order was
an “injunction” and not a “stay,” but they do so in
responding to Montgomery’s separate argument
that—independent of the regulation—the Court’s
order had the effect of depriving Defendants of authority to take any action in preparation for her execution. Dkt. 37 at 17-26. In the preceding section
of their opposition brief, where they respond to
Montgomery’s regulatory argument, however, Defendants merely say: “Even setting aside the fact
that 28 C.F.R. § 26.3(a)(1) uses the term ‘stay’ rather than ‘injunction,’ Defendants fully complied
with § 26.3(a)(1).” Dkt. 37 at 12. That is not enough
to preserve the argument.
It is not surprising that Defendants decline to
press this argument because it misses the mark by
a wide margin. For purposes of interpreting the regulation, the question whether the Court’s order
“might technically be called an injunction is beside
the point.” Nken, 556 U.S. at 430. What matters is
whether treating the Court’s order as a “stay” for
purposes of the regulation comports with the “‘specific context in which [the regulatory] language issue is used, and the broader context of the [regulation] as a whole.’” Id. at 426 (quoting Robinson v.

23a
Shell Oil Co., 519 U.S. 337, 341, (1997)). Here, common usage leaves little doubt that the phrase “stay
of execution” encompasses orders that directly preclude an execution from going forward on the scheduled date. In similar circumstances, the Supreme
Court has used the phrase “stay of execution” to refer to a judicial decree postponing an execution. See
Order, Barr v. Hall, 20A102 (Nov. 19, 2020) (vacating a “stay of execution” by setting aside “the injunction entered by the District Court”). And indeed,
even here, Defendants themselves have repeatedly
referred to the relief that Montgomery sought and
received as a “stay,” Dkt. 12 at 12 (“[B]ecause Montgomery seeks a stay of execution . . .”); id. at 24 (“§
3599 affords [no] basis to stay an execution . . .”);
Dkt. 22-1 at 2 (“Twelve days ago, Montgomery
sought a stay of her scheduled execution . . .”); id. at
9 (“It would also eliminate the need for further
stays”), as have both the Court, Montgomery I, 2020
WL 6799140 at *11 (“briefly staying” Montgomery’s
execution), and Montgomery, Dkt. 13 at 9 (“These
values . . . favor granting a stay of execution to ensure Mrs. Montgomery has access to the historical
fail-safe of executive clemency.”).
Finally, any doubt about this question is put to
rest by the text of § 26.3 itself. Refuting any suggestion that the drafters of the regulation intended to
limit the meaning of the word “stay” to those decrees
that temporarily suspend the judgment of the district court imposing the sentence of death, Dkt. 37
at 18, the regulation provides that, “[u]nless the
President interposes, the United States Marshal
shall not stay execution of the sentence on the basis

24a
that the prisoner has filed a petition for executive
clemency.” 28 C.F.R. § 26.3(b) (emphasis added).
Thus, far from relying on the technical distinction
between an injunction and a stay—a distinction
that was not elucidated under the case law until
years after the regulation was promulgated, see
Nken, 556 U.S. at 428–31—the regulation uses the
word “stay” expansively, if not colloquially.
Although Defendants’ next argument stands on
slightly firmer ground, the Court is also unpersuaded by their contention that § 26.3(a) imposes no
limitation on the Director’s authority to act while a
stay is place. In Defendants’ view, § 26.3(a) was
adopted to require that the Director move promptly
in setting a new execution date when the original
date was delayed by reason of a stay; the goal was
expedition, and any reading of the rule that would
preclude the Director from acting before the stay is
lifted would frustrate that goal. That construction,
however, faces two significant problems.
First, that is not the best reading of the text. Section 26.3 grants the Director broad discretion to set
the original execution date, so long as the date is “no
sooner than 60 days from the entry of the judgment
of death.” 28 C.F.R. § 26.3(a)(1). The regulation then
recognizes that this original date might “pass[] by
reason of a stay of execution.” Id. If that happens,
the regulation then says what should happen: “a
new date shall be designated promptly by the Director of the Federal Bureau of Prisons when the stay
is lifted.” Id. (emphasis added). The meaning of that
provision is both plain and at odds with Defendants’

25a
contention that the regulation authorizes the Director to set “a new date” before the stay is lifted if he
decides to do so.
To be sure, the regulation does not explicitly say
that the Director may not set a new date until the
stay is lifted. But as the Supreme Court has explained, courts presume that “[w]hen a statute [or
regulation] limits a thing to be done in a particular
mode, it includes a negative of any other mode.”
Christensen v. Harris Cnty., 529 U.S. 576, 583
(2000) (internal quotation marks omitted) (quoting
Raleigh & Gaston R.R. Co. v. Reid, 80 U.S. 269, 270
(1871)); Nat’l Rifle Ass’n of America, Inc. v. Reno,
216 F.3d 122, 137 (D.C. Cir. 2000); see also 2A Sutherland, Statutes and Statutory Construction § 47.23
(Norman J. Singer & J.D. Shamble Singer, eds., 7th
ed. 2020). Here, the “thing to be done” is rescheduling after an execution date lapses by reason of a
stay, and the “particular mode” is “promptly . . .
when the stay is lifted.” The regulation defines what
the Director should do and when he should do it.
Defendants’ contention that the rescheduling
provision applies only after the stay is lifted, and
otherwise imposes no requirement on the Director,
rewrites the sentence. Under their interpretation,
the sentence should read: “If the date designated for
execution passes by reason of a stay of execution
and if the stay is lifted, then a new date shall be
designated promptly by the Director of the Federal
Bureau of Prisons.” In other words, if a phrase is
intended to narrow the applicability of a requirement rather than modify the requirement, one
would expect the phrase to appear in the conditional

26a
part of the sentence. But here, “when the stay is
lifted” appears in a series of modifiers that act upon
the requirement that “a new date shall be designated.” The date shall be designated (1) “promptly,”
(2) “by the Director of the Federal Bureau of Prisons,” (3) “when the stay is lifted.”
The second problem with Defendants’ argument
is that it turns on the premise that the rescheduling
provision was adopted to promote expedition—and
only to promote expedition. As an initial matter,
that contention is hard to square with the fact that,
at most, 20 days separates the parties’ competing
constructions of § 26.3(a). Under Defendants’ view,
the Director is allowed to reschedule an execution
before the stay is lifted, although all agree that he
may not set an execution to occur while the stay is
in effect. Under Montgomery’s reading of the regulation, in contrast, the Director must wait until the
stay is lifted and, if the stay was in effect for more
than 20 days, he must provide the prisoner with 20
days’ notice before the execution occurs. Twenty
days is not a lengthy delay in the administration of
the death penalty. But more importantly, Defendants ignore the actual purpose for the rule reflected
in the NPRM. Although the discussion is brief, the
NPRM explained that “[t]he rule [was] necessary to
ensure orderly implementation of death sentences.”
57 Fed. Reg. at 56,536. And, as explained above, the
NPRM further explained that the rule vested the
Director with authority to set and to reset execution
dates to “obviate the practice . . . of seeking a new
execution date from the sentencing court each time
a higher court lifts a stay of execution that caused

27a
an earlier execution date to pass.” Id. The NRPM
does not suggest that any prosecutor would have returned to the sentencing court to ask the judge to
set a new execution date before “a higher court
lift[ed] a stay of execution,” and it does not suggest
that the new rule authorized the Director to proceed
otherwise on his own.
At least at times, moreover, it is far from clear
that the Director could do so without running afoul
of the courts. To take one example from shortly before the NPRM was issued, the Eighth Circuit “emphatically disapprove[d]” of the practice of moving a
petitioner from his cell “to a special holding area” in
preparation for his execution while a stay remained
in effect, so the state could “carry out the sentence
promptly . . . if the motion to vacate the stay [was]
granted.” Smith v. Armontrout, 825 F.2d 182, 184
(8th Cir. 1987). In that case, the court observed, if
the “stay of execution [is] dissolved, respondent will
be at liberty both to prepare to carry out the sentence, and actually to carry it out,” but “[u]ntil that
time, the petitioner should not be subjected to the
‘preparations’ that we have described.” Id. It does
not require a leap of logic to extend that admonition,
at least in some contexts, to “the setting of an execution date” while a stay is in effect. State v.
Joubert, 518 N.W.2d 887, 897–98 (Neb. 1994). Moreover, even assuming that the stay at issue in this
case did not independently deprive the Director of
authority to set an execution date, it is easy to conclude that the “orderly implementation of death
sentences” would be served by absolving the Direc-

28a
tor of responsibility to determine which stays deprive him of authority to act, and which do not, and
to adopt a blanket rule simply providing that the
Director should act promptly to set a new date after
the stay is lifted. Indeed, construing the rule to
avoid disputes about the Director’s authority to act
while a stay is in place seems more likely to promote
expedition, than to detract from it.
“Defendants’ alternative argument is equally
unavailing. Turning back to the regulatory text,
they argue that the Director did nothing wrong here
because he reset Montgomery’s execution date before December 8, 2020—when the execution was set
to occur but for the Court’s stay—and the rescheduling provision applies only “[i]f the date designated
for execution passes by reason of a stay of execution,” 28 C.F.R. § 26.3(a). As Defendants explain
their argument, because “[t]here can only be one
date designated for execution at any particular
time,” the rescheduling limitation applies, if at all,
only after the designated date has passed, and,
here, the date that is now operative—January 12,
2021—has not yet passed. Dkt. 37 at 13.
The Court is, once again, unpersuaded and concludes that the relevant events and regulation are
better understood as follows: The initial date designated for Montgomery’s execution was December 8,
2020; on November 19, 2020, the Court ordered that
the execution not go forward on that date; on November 23, 2020, the Director rescheduled Montgomery’s execution because of the Court’s November
19, 2020 order. Against this backdrop, and notwithstanding the Director’s intervening act, the Court

29a
has little doubt that the December 8th date passed
“by reason of” the Court’s “stay of execution.” First,
contrary to Defendants’ contention, the Court concludes that the phrase “date designated for execution” refers to the date of execution subject to the
Court’s stay, not whatever date the Director subsequently sets. This reading of the regulation makes
sense of the overall provision, which, in the first
sentence, instructs the Director to set a date for execution, and in the second, permits the Director to
set a subsequent date “when the stay is lifted.” 28
C.F.R. § 26.3(a)(1). Second Defendants never suggest—nor could they suggest—that the December 8,
2020 execution date would have passed had the
Court not issued its stay or that the date passed for
some other “reason.” 28 C.F.R. § 26.3(a)(1). To be
sure, had the Director set a new date for reasons
unrelated to the stay, Defendants might have an argument. But, as explained, that is not what happened, and as long as the December 8th date passed
because the Court entered a stay—which is indisputably what happened here—§ 26.3(a) is best construed to require that the Director wait until after
the stay is lifted to set a new date.
Defendants offer no sensible rationale for the
construction of the rule that they propose. The consequence of Defendants’ interpretation is that the
BOP Director enjoys full discretion to reschedule up
to and including on the date of execution but is paralyzed thereafter until the stay is lifted. Defendants
laud their interpretation as sensible because it
“does not require the Director to designate a new
date before the stay terminates, [as] there may be

30a
circumstances—particularly if the stay is indefinite—when doing so would not be practicable.” Dkt.
36 at 28. But they fail to offer any plausible explanation for why the Director is empowered to act before the date passes but not after. Moreover, in the
case of indefinite stays, Defendant’s reading of the
regulation would encourage the Director to engage
in an ongoing relay race with himself, during which
he repeatedly sets and resets the execution date just
before it passes to avoid the loss of authority to reschedule before the stay is lifted. Such a result can
hardly be deemed to advance the “orderly” implementation of death sentences.
The Court is also unpersuaded that either of Defendants’ readings of § 26.3(a) is saved by Auer deference. Dkt. 37 at 16–17. Under the Supreme
Court’s decision in Auer v. Robbins, 519 U.S. 452
(1997)—and the Court’s early decision in Bowles v.
Seminole Rock & Sand Co., 325 U.S. 410 (1945)—a
court must at times defer “to an agency’s interpretation of its own ambiguous regulation,” Christopher v. SmithKline Beecham Corp., 567 U.S. 142,
155 (2012). Here, Defendants maintain that the
Court should defer to their reading of § 26.3(a) because the regulation is ambiguous and because their
reading “is reasonable.” Dkt. 37 at 16. They further
contend that their reading of the regulation represents “Defendants’ official position, as demonstrated by the scheduling of executions for Montgomery,” and two other prisoners—Lezmond Mitchell and Alfred Bourgeois—“while a stay or injunc-

31a
tion was in effect, and numerous legal filings addressing the issue, including [their] brief” in this
case. Id.
“Auer deference,” however, “is not the answer to
every question of interpreting an agency’s rules.”
Kisor v. Wilkie, 139 S. Ct. 2400, 2414 (2019). It applies “only if a regulation is . . . genuinely ambiguous, even after a court has resorted to all the standard tools of interpretation,” and, even then, it is subject to important “limits.” Id. For one thing, the interpretation must reflect “the agency’s ‘authoritative’ or ‘official position,’ rather than any more ad
hoc statement not reflecting the agency’s views.” Id.
at 2416 (quoting United States v. Mead Corp., 533
U.S. 218, 257–59 & n.6 (2001) (Scalia, J., dissenting)). For another, “the agency’s interpretation
must in some way implicate its substantive expertise,” as opposed to the type of “interpretative issue[s]” that might “fall more naturally in the judge’s
bailiwick.” Id. at 2417. And, finally, the interpretation “must reflect” the agency’s “‘fair and considered
judgment’ to receive Auer deference,” as opposed to
“a merely ‘convenient litigating position’ or ‘post hoc
rationalization[] advanced’ to ‘defend past agency
action against attack.’” Id. at 2417 (quoting Christopher, 567 U.S. at 155). This final limitation generally forecloses deferring “to agency interpretations
advanced for the first time in legal briefs,” at least
when the agency is a party and has not “expressed
its views . . . in response to the Court’s request.” Id.
at 2417–18 n.6.
Here, the Court is unpersuaded that § 26.3(a) admits of the type of ambiguity that Auer demands. A

32a
regulation is not ambiguous merely because its
meaning is not self-evident at first blush or merely
because lawyers are capable of making colorable arguments on both sides of a dispute. Rather, a rule is
“genuinely ambiguous” only if, after the court “exhaust[s] all the ‘traditional tools’ of construction,”
and “only when th[e] legal toolkit is empty,” the
court concludes that “the interpretive question still
has no single right answer.” Id. at 2415 (quoting
Chevron U.S.A. Inc. v. Nat. Res. Def. Council, Inc.,
467 U.S. 837, 843, n.9 (1984)). For the reasons explained above, the meaning of § 26.3(a) is susceptible to legal interpretation. This is not a case in
which a gap is left to fill based on policy judgment
or agency expertise.
Nor can Defendants point to any evidence that
the Department of Justice engaged in the type of
“authoritative, expertise-based, ‘fair[, or] considered judgment’” that Auer requires. Id. at 2414 (quotation omitted). The record indisputably reflects
that the Director decided to reset Montgomery’s execution date while this Court’s stay was in effect,
Dkt. 33 at 177–79, but it contains no evidence that
anyone from the Department of Justice—much less
an “authoritative” source—ever considered whether
§ 26.3(a) precluded the Director from acting while
the stay was in effect. The position taken in Defendants’ briefs, moreover, constitutes the type of post
hoc rationalization or “convenient litigating position” that does not merit deference. Kisor, 139 S. Ct.
at 2417. Likewise, nothing in the Mitchell and Bourgeois cases counsels in favor of deference. Defendants fail to identify anywhere in the administrative

33a
records or briefs that an “authoritative” source considered the meaning of the rescheduling provision
of § 26.3(a) and concluded that it was reasonably
construed to have the meaning Defendants press in
this case. To the contrary, only one of the litigation
filings makes any reference to § 26.3(a), and that
filing merely attaches a rescheduling letter that,
like the letter in this case, cites to § 26.3(a)(1) without any explanation or elaboration.4 Dkt. 38 at 129.
And, finally, the Mitchell and Bourgeois cases differ
from the present case in a significant respect; in
both of those cases, the appellate court had issued
its decision vacating the stay, although the court

In fact, the one case in which the Department of Justice has
even made passing reference to § 23.6(a) weighs against the interpretation Defendants offer here. In a Supreme Court brief in
opposition to an application for a stay of execution and to a petition for a writ of certiorari, the Solicitor General responded to
the petitioner’s contention “that the government lack[ed] a compelling interest in proceeding because it did not schedule the[]
executions immediately after petitioners exhausted their postconviction proceedings in 2014 and 2015.” Brief for the United
States at 21, O’Keefe v. Barr, Nos. 20A11, 20-23, 2020 WL
4015846 (U.S. July 2020). The Solicitor General explained that,
“[t]hrough no fault of the government’s, [the] execution date[s]
[were] stayed until June 12, 2020,” and “once the stay was lifted,
BOP promptly rescheduled the executions, consistent with the
applicable regulation,” § 26.3(a)(1). Id. (emphasis added). Although also a litigation position, and although far from definitive,
this passage at least suggests that the Department understood
§ 26.3(a)(1) to preclude the setting of a new date until after the
stay was lifted. Otherwise, it is difficult to understand how the
reference to § 26.3(a)(1) furthered the Department’s contention
that it was not responsible for the delay that the petitioners
raised.

4

34a
had yet to issue its mandate. Dkt. 38 at 125–26,
167–68.
The Court, accordingly, concludes that the Director’s order setting a new execution date while the
Court’s stay was in effect was “not in accordance
with law,” 5 U.S.C. § 706(2)(A), and was “without
observance of procedure required by law,” id. §
706(2)(D). “[T]he default remedy” under the APA “is
to set aside Defendants’ action,” Reed v. Salazar,
744 F. Supp. 2d 98, 119 (D.D.C. 2010); see also 5
U.S.C. § 706, and Defendants offer no sound reason
to depart from that approach here. This is not a
case, for example, where a rule merely lacks adequate support, which the agency can readily cure on
remand. Allied-Signal, Inc. v. NRC, 988 F.2d 146,
150–51 (D.C. Cir. 1993). Indeed, the only way to
cure the error is through rescission of the order setting the execution date and leaving it to the Director
to designate a new date after the stay is lifted.5
Defendants ask the Court, in the event it finds a regulatory
violation, to modify its order to allow the BOP Director to “permit
the execution to proceed as early as December 31.” Dkt. 36 at
32–33. By its terms, 28 C.F.R. § 26.3 applies “[e]xcept to the extent a court orders otherwise.” As an initial matter, it is unclear
whether this proviso is directed at the sentencing court, the
court that has issued the stay, or both; the clause, for example,
applies to a range of actions that seem to fall within the discretion of the sentencing court, such as setting a date and place for
execution of the sentence and the method of execution. But even
assuming that the proviso applies to this Court, Defendants
have failed to offer good reason to depart from the usual application of § 26.3(a) in this case. Requiring that the Director wait
until after the stay expires to set a new execution date will provide Montgomery with additional time to complete her clemency

5

35a
This, then, leaves Defendants’ observation that
the court must take “due account . . . of the rule of
prejudicial error,” 5 U.S.C. § 706, and contention
that Montgomery cannot “demonstrate prejudice”
because she has not shown that “additional time
would result in more favorable review of her clemency petition or materially change her ability to prepare for her death sentence, which she has had over
15 years to contemplate.” Dkt. 37 at 40-41; but see
Montgomery I, 2020 WL 6799140, at *1 (noting that
Montgomery was sentenced to death in 2008).
A party challenging an act taken by an agency
must prove more than a mere legal violation; the
party also bears “[t]he burden to demonstrate prejudicial error.” Jicarilla Apache Nation v. U.S. Dep’t
of Interior, 613 F.3d 1112, 1121 (D.C. Cir. 2010).
This burden is not “a particularly onerous requirement,” however, Shinseki v. Sanders, 556 U.S. 396,
410 (2009), and “[if] prejudice is obvious to the
court, the party challenging agency action need not
demonstrate anything further,” Jicarilla, 613 F.3d
at 1121; see also SW Gen., Inc. v. NLRB, 796 F.3d
67, 80–81 (D.C. Cir. 2015).
Here, the prejudice to Montgomery is obvious. As
she explains, the Director’s order diminished the
time that she has “to seek legal relief from her death
sentence,” including through the clemency process,
petition, and Defendants provide no convincing argument why
shortening that time would serve the interests of justice. Finally,
to the extent that Defendants seek modification of the Court’s
November 19, 2020 order, they have not filed a motion seeking
that relief.

36a
and to “‘prepare, mentally and spiritually, for [her]
death.’” Dkt. 35 at 19 (quoting Ford v. Wainwright,
477 U.S. 399, 421 (1986) (Powell, J., concurring)).
Although Defendants are correct that Montgomery
has not, and cannot, prove that this additional time
will yield a commutation of her sentence, such proof
is not required. When a court is uncertain whether
remedying agency error will lead to a plaintiff’s ultimate goal—in this case, clemency—that “uncertainty is sufficient to conclude that [the plaintiff]
has carried [her] burden.” SW Gen., 796 F.3d at 80–
81. Here, a later execution date will allow more time
for Montgomery to pursue her clemency petition,
and perhaps that time will have an effect on its success.6 The Court therefore finds it appropriate to vacate her date of execution.
2. 18 U.S.C. § 3596
Having concluded that Montgomery is entitled to
the relief that she currently seeks—vacatur of the
Director’s order setting her execution date while the
Court’s stay was in place—the Court will not address Montgomery’s alternative argument under
Defendants note that Judge Chutkan “recently recognized[]
[that] even if a court believes a statute affords a condemned prisoner additional days of life, providing fewer days’ notice does not
rise to the level of irreparable harm when the prisoner has been
under a death sentence for well over a decade and has received
notice well in advance of the execution.” Dkt. 36 at 34 (citing In
re Matter of the Fed. Bureau of Prisons’ Execution Protocol Cases,
No. 19-mc-145, 2020 WL 7186766, at *7 (D.D.C. Dec. 6, 2020)).
Because Judge Chutkan was applying the higher “irreparable
harm” standard applicable in injunctions, her reasoning is inapposite here.

6

37a
the FDPA for two related reasons. First, given the
Court’s holding with respect to § 26.3(a), it is unnecessary to address her FDPA claim, which poses a
host of difficult issues that, if possible, are better
left for resolution on a less compressed timetable.
Indeed, the proper interpretation of the FDPA has
divided the D.C. Circuit. See Execution Protocol
Cases I, 955 F.3d at 108; Execution Protocol Cases
II, No. 20-5361, slip op. at 3–4. Second, in light of
the Court’s conclusion that the Director’s existing
order must be set aside, the question whether a new
order must provide Montgomery with at least 90
days’ notice is hypothetical and not ripe for resolution. The Court asked counsel for Defendants at oral
argument whether Defendants had decided how
they would proceed if the Court were to rule in
Montgomery’s favor with respect to § 26.3, and
counsel indicated that he did not know. Absent a decision by the Director about when he will set a new
date, and how much notice he will provide Montgomery, resolution of Montgomery’s FDPA claim is
premature. Montgomery herself acknowledged in a
supplemental filing “that if Defendants’ January 12,
2021 designation is vacated for failure to comply
with 28 C.F.R. § 26.3, the Court need not reach the
FDPA issue.” Dkt. 45 at 2.
CONCLUSION
For the reasons stated above, the Court
GRANTS Montgomery’s motion for summary judgment, Dkt. 35, as to Defendants’ violation of federal
regulations, 28 C.F.R. §§ 26.3 and 26.4 (Claim I),
and VACATES the Director’s November 23, 2020
order setting a new execution date while the Court’s

38a
November 19, 2020 stay was in effect. In light of the
vacatur, the Court DENIES Montgomery’s motion
to clarify, Dkt. 28, as moot. The Court does not reach
Montgomery’s claim that Defendants violated the
FDPA (Claim II).
SO ORDERED.
/s/ Randolph D. Moss
RANDOLPH D. MOSS
United States District Judge
Date: December 28, 2020

39a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
LISA MARIE MONTGOMERY,
Plaintiff,

Civil Action No. 20-3261
(RDM)

vs.
JEFFREY A. ROSEN et
al.,
Defendants.

ORDER
On the evening of December 24, 2020, the Court
entered summary judgment in Plaintiff’s favor on
Count I of Plaintiff’s supplemental complaint. Dkt.
47. Because it was unclear whether that decision finally resolved the issues raised in the case, the
Court entered a Minute Order at that same time directing that the parties file a joint status report on
or before noon on Sunday, December 27, 2020, addressing whether the Court should enter partial final judgment pursuant to Federal Rule of Civil Procedure 54(b) or final judgment pursuant to Rule 58.
To avoid the risk that the parties’ and the Court’s
consideration of that issue might delay any efforts
to seek appellate review, the Court will enter partial
final judgment sua sponte at this time, while reserving on the question whether to enter final judgment
until after receiving the parties’ joint status report.

40a
Under Rule 54(b), the Court may enter partial
final judgment “[w]hen an action presents more
than one claim for relief . . . if [it] expressly determines that there is no just reason for delay.” As explained in the Court’s memorandum opinion and order, Dkt. 47, the Court granted Plaintiff’s motion for
partial summary judgment as to Count I of Plaintiff’s supplemental complaint. That decision fully
and finally resolved Count I of Plaintiff’s supplemental complaint. The Court now determines that
there is no just reason for delay in entering final
judgment with respect to that claim and, accordingly, hereby enters final judgment with respect to
Count I of Plaintiff’s supplemental complaint.
SO ORDERED.
/s/ Randolph D. Moss
RANDOLPH D. MOSS
United States District Judge
Date: December 26, 2020

41a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
LISA MARIE MONTGOMERY,
Plaintiff,

Civil Action No. 20-3261
(RDM)

vs.
JEFFREY A. ROSEN et
al.,
Defendants.

ORDER
Defendants seek a stay of the Court’s December
24, 2020 order granting partial summary judgment
in favor of Plaintiff on Count I of her supplemental
complaint and vacating her January 12, 2021 execution date, Dkt. 47, and of the Court’s December
26, 2020 order entering partial final judgment in
Plaintiff’s favor, Dkt. 48. As Defendants correctly
observe, that request for preliminary relief is governed by the four-factor test set forth in Hilton v
Braunskill, 481 U.S. 770, 776 (1987). Under the Hilton test, the Court must consider: “(1) whether the
stay applicant[s] ha[ve] made a strong showing that
[they are] likely to succeed on the merits; (2)
whether the applicant[s] will be irreparably injured
absent a stay; (3) whether issuance of the stay will
substantially injure the other parties interested in
the proceeding; and (4) where the public interest
lies.” Id.

42a
With respect to the first factor, the Court has already concluded that Plaintiff’s claim to relief under
Count I of her supplemental complaint is meritorious. It follows that Defendants have not made a
showing that they are likely to succeed on the merits, much less the required “strong showing” of a
likelihood of success. Id.
With respect to the second factor, Defendants
contend that Plaintiff “will not suffer irreparable
harm from the bare procedural violation she alleges.” Dkt. 51 at 2. That, however, misunderstands
the governing test, which does not turn on whether
Plaintiff will suffer an irreparable harm but on
whether Defendants, as the parties seeking to stay
the Court’s judgment, will suffer such a harm absent extraordinary relief. Hilton, 481 U.S. at 776
(considering whether the applicant for a stay will be
irreparably harmed); see also Doe 1 v. Trump, No.
17-5267, 2017 WL 6553389, at *2 (D.C. Cir. Dec. 22,
2017) (per curiam) (discussing the stay applicants’
failure to demonstrate irreparable harm). Beyond
arguing that Plaintiff will suffer no irreparable
harm, Defendants say nothing about the irreparable
injury factor and thus fail to carry their burden on
this prong of the test.
With respect to the third and fourth factors, Defendants contend that the failure to grant a stay will
cause substantial harm to the public and to the interests of justice. In support of that contention, Defendants point to decisions from the Supreme Court
recognizing that “the long delays that now typically
occur between the time an offender is sentenced to

43a
death and his execution are excessive” and unjustified. Dkt. 51 at 3 (citing Bucklew v. Precythe, 139 S.
Ct. 1112, 1134 (2019); Calderon v. Thompson, 523
U.S. 538, 556 (1998); Gomez v. U.S. Dist. Ct. for N.
Dist. of Cal., 503 U.S. 653, 654 (1992)). Here, however, the difference between proceeding with the execution on January 12, 2021 and complying with the
Court’s decision would require only a short delay—
a little over a week, if Defendants were to issue a
notice on December 31, 2020 resetting the execution
for twenty days hence, as permitted by the Court’s
order.1 Nor is this a case in which Plaintiff has engaged in endless rounds of litigation; her first round
of collateral review became final only earlier this
year. Dkt. 12 at 10. Finally, the public has a substantial interest in ensuring that the death penalty
is carried out in accordance with the law—the government must turn square corners even when, as
here, the rule at issue is a procedural one.
For the foregoing reasons, the Court concludes
that Defendants have failed to carry their burden
under Hilton and, accordingly, DENIES their motion for a stay of the Court’s order and judgment.

Although the presidential transition will take place partway
through the first day when Defendants would be able to reschedule Plaintiff’s execution, Defendants do not rely on this fact—
and rightfully so, as possible changes that might come with a
presidential transition are not a matter for the courts.

1

44a
SO ORDERED.
/s/ Randolph D. Moss
RANDOLPH D. MOSS
United States District Judge
Date: December 28, 2020

45a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 20-5379

September Term, 2020
1:20-cv-03261-RDM
Filed On: January 5, 2021

Lisa Marie Montgomery
Appellee
v.
Jeffrey Rosen, Acting Attorney General of the United
States in his official capacity, et al.,
Appellants
BEFORE: Srinivasan, Chief Judge, and Henderson,
Rogers, Tatel, Garland*, Millett, Pillard*, Wilkins,
Katsas, Rao, and Walker, Circuit Judges
ORDER
Upon consideration of the emergency petition for
rehearing en banc and, if necessary, an administrative stay, the response to the petition, and the absence
of a request by any member of the court for a vote, it
is
ORDERED that the petition be denied.

Circuit Judges Garland and Pillard did not participate in this
matter.

*

46a
The Clerk is directed to issue the mandate forthwith to the district court.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
By:

/s/
Michael C. McGrail
Deputy Clerk

47a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 20-5379

September Term, 2020
1:20-cv-03261-RDM
Filed On: January 5, 2021

Lisa Marie Montgomery
Appellee
v.
Jeffrey Rosen, Acting Attorney General of the United
States in his official capacity, et al.,
Appellants
MANDATE
In accordance with the order of January 1, 20201,
and pursuant to Federal Rule of Appellate Procedure
41, this constitutes the formal mandate of this court:
FOR THE COURT:
Mark J. Langer, Clerk
By:

/s/
Michael C. McGrail
Deputy Clerk

48a
APPENDIX G
Relevant Statutory Provision
28 C.F.R. § 26.3
Date, time, place and manner of execution.
(a) Except to the extent a court orders otherwise, a
sentence of death shall be executed:
(1) On a date and at a time designated by the Director of the Federal Bureau of Prisons, which date
shall be no sooner than 60 days from the entry of
the judgment of death. If the date designated for
execution passes by reason of a stay of execution,
then a new date shall be designated promptly by
the Director of the Federal Bureau of Prisons
when the stay is lifted;
(2) At a penal or correctional institution designated by the Director of the Federal Bureau of
Prisons;
(3) Under the supervision of a United States Marshal (Marshal) designated by the Director of the
United States Marshals Service, assisted by additional qualified personnel selected by the Director
of the United States Marshals Service and the Director of the Federal Bureau of Prisons, or their
designees, and acting at the direction of the Marshal; and
(4) By intravenous injection of a lethal substances
in a quantity sufficient to cause death, such substance or substances to be determined by the Director of the Federal Bureau of Prisons, or by any
other manner prescribed by the law of the State in

49a
which the sentence was imposed or which has been
designated by a court in accordance with 18 U.S.C.
3596(a).
(b) Unless the President interposes, the United States
Marshal shall not stay execution of the sentence on
the basis that the prisoner has filed a petition for executive clemency.

